     Management Advisory Report




Single Audit of the State of Ohio for
the Fiscal Year Ended June 30, 2012




       A-77-14-00007 | January 2014
Single Audit of the State of Ohio for the Fiscal Year Ended
June 30, 2012
A-77-14-00007
January 2014                                                                Office of Audit Report Summary

Objective                                   Finding

To report internal control weaknesses,      The single audit reported that RSC did not disburse Federal funds
noncompliance issues, and                   drawn for payroll within 3 days of receipt, as required by the Cash
unallowable costs identified in the         Management Improvement Act agreement.
single audit to the Social Security
Administration (SSA) for resolution         Recommendation
action.
                                            We made a recommendation to SSA in a prior report for corrective
Background                                  action on this finding. We confirmed that SSA had taken
                                            appropriate corrective action to address this finding. Therefore, we
The Ohio State Auditor conducted the        will not repeat the recommendation in this report.
single audit of the State of Ohio. SSA
is responsible for resolving single audit
findings related to its Disability
programs. The Rehabilitation Services
Commission (RSC) is the Ohio Bureau
of Disability Determination’s (BDD)
parent agency.
MEMORANDUM
Date:      January 10, 2014                                                          Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Ohio for the Fiscal Year Ended June 30, 2012 (A-77-14-00007)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Ohio for the Fiscal Year ended June 30, 2012. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Ohio State Auditor performed the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the Ohio State Auditor and the reviews performed by
           HHS. We conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Ohio Bureau of Disability Determination (BDD) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The BDD is reimbursed for
           100 percent of allowable costs. The Rehabilitation Services Commission (RSC) is the Ohio
           BDD’s parent agency.




           1
            State of Ohio Single Audit for the Year ended June 30, 2012
           http://www.auditor.state.oh.us/auditsearch/Reports/2013/State_of_Ohio_Single_Audit_12_Franklin.pdf (last viewed
           December 19, 2013).
Page 2 - Gary S. Hatcher

The single audit reported that RSC did not disburse Federal funds drawn for payroll within
3 days of receipt, as required by the Cash Management Improvement Act (CMIA) agreement. 2
The corrective action plan indicates RSC revised its draw procedures for payroll to meet the
CMIA requirements.

We made a recommendation to SSA in a prior report for corrective action on this finding. 3 We
confirmed that SSA had taken appropriate corrective action to address this finding. Therefore,
we will not repeat the recommendation in this report.

If you have questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                     Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 2012-RSC01-035.
3
 SSA OIG, Management Advisory Report, Single Audit of the State of Ohio for the Fiscal Year Ended
June 30, 2011 (A-77-13-00009), May 3, 2013.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
